Report No. IPO2009E001              July 24, 2009




   Review of Electrocution Deaths in Iraq:

   Part II - Seventeen Incidents Apart from

  Staff Sergeant Ryan D. Maseth, U.S. Army
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE 

                                    400 ARMY NAVY DRIVE 

                               ARLINGTON, VIRGINIA 22202-4704 


                                                                  JUL 2 4 2009

MEMORANDUM FOR DEPUTY UNDER SECRETARY OF DEFENSE FOR
                 ACQUISITION AND TECHNOLOGY
               COMMANDER, U.S. CENTRAL COMMAND
               COMMANDER, MULTI-NATIONAL FORCES - IRAQ
               COMMANDER, ARMY SUSTAINMENT COMMAND
               DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
               ARMY ASSISTANT CHIEF OF STAFF FOR INSTALLATION
                 MANAGEMENT


SUBJECT: Review of Electrocution Deaths in Iraq: Part II - Seventeen Incidents Apart
         From Staff Sergeant Ryan D. Maseth, U.S. Army (Report No. IP02009EOOI)

We are providing this final report for information and use.

We requested and received management comments from the Conm1ander, U.S. Central
Command; Commander, Multi National Forces - Iraq; COl1ll1lander, Multi National Corps ­
Iraq; Director, Joint Staff; U.S. Army Assistant Chief of Stafffor Installation Management;
and the Director, Defense Contract Management Agency. We also received management
comments from the Conm1ander, Army Materiel COl1ll1land and the Commander, U.S. Army
Criminal Investigation Command. All comments conformed to the requirements of DoD
Directive 7650.3, "Follow-up on General Accounting Office (GAO), DoD Inspector General
(DoD IG), and Internal Audit Reports," June 3, 2004.

Management comments discussed observations and recol1ll1lendations made in Part I.
Management made no comments to the draft of this patt of our report.

As stated in the enclosed report, the Army and Navy reopened their investigations in four
electrocution cases as a result of OUl' work. The Naval Criminal Investigative Service
completed its investigation into the death of Hospital Corpsman Third Class David A.
Cedergren, and we are reviewing the final investigative results in that case. The Army
Criminal Investigation Command's investigations in the remaining three cases continue at this
date. We will supplement this report as needed after reviewing the final investigations in all
four cases.

We appreciate the courtesies extended to our staff. Please direct questions to me at (703)
602-1017 (DSN 664-1017).



                                                ~~
                                               Deputy Inspector General
                                               for Policy and Oversight
This page intentionally left blank.
                   Review of Electrocution Deaths in Iraq:
                   Part II – Seventeen Incidents Apart from
                  Staff Sergeant Ryan D. Maseth, U.S. Army
                           (Report No. IPO2009E001)

                                          TABLE OF CONTENTS

I.	    Introduction and Summary ..................................................................................... 1


        Review Results .......................................................................................................... 2 


II.	 Scope .......................................................................................................................... 3


III.	 Case Reviews ............................................................................................................. 4


        Specialist Marvin A. Campo-Siles, United States Army........................................... 4 


        Specialist Chase R. Whitham, United States Army................................................... 8 


        Private First Class Brian K. Cutter, United States Marine Corps............................ 11 


        Specialist Marcus O. Nolasco, United States Army ................................................ 14 


        Hospital Corpsman Third Class David A. Cedergren, United States Navy ............ 17 


        Sohan Singh, Civilian Contractor Employee........................................................... 20 


        Sergeant Christopher L. Everett, United States Army............................................. 22 


        Sergeant Michael J. Montpetit, United States Army ............................................... 25 


Appendix A. U.S. Military or Contractor Personnel Electrocuted in Iraqi 

   March 2003 through March 2009 ..................................................................... 29


Appendix B. Report Distribution............................................................................. 30

This page intentionally left blank.
                           Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                                  Staff Sergeant Ryan D. Maseth, U.S. Army
                                                                   July 24, 2009    Report No. IPO2009E001




                Review of Electrocution Deaths in Iraq:
                Part II – Seventeen Incidents Apart from
               Staff Sergeant Ryan D. Maseth, U.S. Army


I.        Introduction and Summary
       This is Part II of our “Review of Electrocutions in Iraq.” 1 Based on preliminary
work conducted in support of Part I, and growing congressional interest, we sought
information on all electrocutions that occurred in Iraq since Operation Iraqi Freedom
began in March 2003. We identified 17 other electrocutions involving U.S. military or
contractor personnel, as listed in Appendix A.

        Nine of the 17 electrocutions involved accidental deaths that resulted from the
victims touching or coming into contact with live electrical power lines. Whether
equipment maintenance complied with proper electrical standards or grounding
requirements were not issues in these nine electrocutions, and the investigations
conducted in the cases sufficiently established responsibility for the deaths. The
circumstances surrounding these deaths were straightforward, and the respective
investigations laid out the relevant facts surrounding these incidents and established
responsibility for the deaths.

        The remaining eight electrocutions involved equipment malfunctions that could
have related to whether equipment maintenance complied with proper electrical standards
or whether the respective chain of command acted responsibly in protecting Service
members. This report presents our results after reviewing the eight electrocutions
involving equipment which occurred prior to Staff Sergeant Ryan D. Maseth’s death in
January 2008. In each case, prior to our review, either the United States Army Criminal
Investigation Command (USACIDC), or the Naval Criminal Investigative Service
(NCIS) completed an investigation. 2 In addition, in most cases, other investigations were
conducted, including accident/safety investigations, command directed investigations,
and autopsies.

       Our review focused on (1) whether USACIDC and NCIS adequately addressed
the cause and manner of death in each case, and (2) if they thoroughly examined whether
personnel in each victim’s chain-of-command were aware of electrical safety problems

1	
     See our report, “Review of Electrocutions in Iraq: Part I - Electrocution of Staff Sergeant Ryan D.
     Maseth, U. S. Army” (Project No. D2008-DIPOE2-0196)
2	
     Under DoD policy, the cognizant Military Criminal Investigative Organization is required to investigate
     each unattended military death, and investigate the case as a homicide until evidence establishes
     differently. The Military Criminal Investigative Organizations are the USACIDC, the NCIS, and the
     Air Force Office of Special Investigations.



                                                      1

                     Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                           Staff Sergeant Ryan D. Maseth, U.S. Army
                                                            July 24, 2009   Report No. IPO2009E001


and, by inaction, negligently placed the victim at risk. In addition to reviewing
investigations conducted by a Military Criminal Investigative Organization (MCIO), we
reviewed command-directed investigations, safety/accident investigations, autopsies, and
any other investigation regarding the deaths. We also visited the sites in Iraq where the
deaths occurred and interviewed current command personnel about the electrocutions.
We conducted our work between August 2008, and March 2009.

       Review Results
      Our examination of the eight cases at issue determined that further investigation
was warranted in four cases.

       NCIS reopened its investigation into one of those cases -- the 2004 death of Petty
Officer David A. Cedergren -- after Armed Forces Institute of Pathology revised its initial
autopsy findings to state the cause of death was “electrocution with concurrent
myocarditis [inflammation of the heart] and the manner of death was accidental [rather
than natural].”

         With respect to the remaining seven cases, we found that investigations conducted
by the Military Criminal Investigative Organizations were adequate for the cause and
manner of death determinations, which was the primary purpose of those investigations.
However, in three cases, we concluded the evidence should have led to additional
investigative work to resolve accountability issues, and we requested USACIDC reopen
its investigations. Those three cases involved an electric power washer used to clean
vehicles and equipment, a hot water heater and water pump connected to a shower
facility, and a water pump for a swimming pool. In each case, we questioned whether the
victim’s chain of command acted responsibly to protect the victim and other personnel.

       Upon completion, we will again review the NCIS and USACIDC investigations
which required additional work.




                                               2

                              Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                                    Staff Sergeant Ryan D. Maseth, U.S. Army
                                                                     July 24, 2009      Report No. IPO2009E001




II. Scope
        This review examined 17 of the 18 U.S. military or contractor personnel who had
been electrocuted in Iraq since Operation Iraqi Freedom began in March 2003. 3 In nine
of the 17 electrocutions, accidental deaths resulted from the victims touching or coming
into contact with live electrical power lines. Evidence regarding the circumstances
surrounding these deaths was uncontroverted; therefore, these cases did not present a
basis for further review. The remaining eight electrocutions, however, involved
equipment malfunctions that could have related to whether a contractor complied with
proper electrical standards, or whether the victims’ chains of command acted responsibly
to protect their troops. These electrocutions are listed in the table below.

                            Table 1. Electrocutions in Iraq (Cases Involving Equipment)


     No.           Rank, Name and Service          Incident Date              Incident / Incident Location
1            Specialist Marvin A. Campo-Siles     04/17/04          Electrocuted while attempting generator repair,
             (Army)                                                 Pad 9, Forward Operating Base Brassfield-
                                                                    Mora, Samarra, Iraq
2            Specialist Chase R. Whitham          05/08/04          Electrocuted while swimming in outdoor pool,
             (Army)                                                 Forward Operating Base Patriot, Mosul, Iraq

3            Private First Class/E-2 Brian K.     05/13/04          Electrocuted while attempting air conditioner
             Cutter (Marine Corps)                                  repair, Al-Asad Airbase, Camp Fallujah, Iraq
4            Specialist Marcus O. Nolasco         05/18/04          Electrocuted while taking a shower, Forward
             (Army)                                                 Operating Base Summerall, Bayji, Iraq

5            Hospital Corpsman Third Class        09/11/04          Electrocuted while taking a shower, Outdoor
             David A. Cedergren (Navy)                              Shower, Camp Iskandariyah, Iraq

6            Sohan Singh                          07/19/05          Electrocuted while attempting to enter his
             (Civilian Contractor)                                  room, Fallujah Surgical, Camp Fallujah, Iraq.
7            Sergeant Christopher L. Everett      09/07/05          Electrocuted while using a power washer,
             (Army)                                                 Camp Taqaddum, Iraq
8            Sergeant Michael J. Montpetit        06/22/07          Electrocuted while attempting generator repair,
             (Army)                                                 Forward Operating Base Prosperity, Iraq



        In conducting our review, we collected and reviewed the set of investigative files
(i.e., MCIO investigation, accident/safety investigation, command-directed investigation,
and the autopsy report) completed in each of these electrocutions. 4 We looked for any
factual inconsistency within the investigative file set that might indicate a deficiency in
the investigation. To aid in the assessment of accountability, we attempted to identify the

3	
      As indicated above, the electrocution of SSG Maseth is addressed in a separate report.
4	
      Our review in the Hospital Corpsman Cedergren case was limited because NCIS reopened its
      investigation, and we did not want to interfere with the ongoing investigative activities. We will review
      the investigation again after completion.



                                                        3

                      Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                            Staff Sergeant Ryan D. Maseth, U.S. Army
                                                             July 24, 2009   Report No. IPO2009E001


victim’s chain of command and to establish what equipment was involved and what
entity was responsible for its installation and maintenance.

        Our work included a field trip during September and October 2008 to the sites in
Iraq where the deaths occurred, and interviews with extant command personnel. The
scenes bore little resemblance to those depicted in photographs at the time of the
electrocutions. At some sites, the U.S. has returned control over the territory involved to
the Iraqis, and no longer has ongoing operations.


III. Case Reviews
       Specialist Marvin A. Campo-Siles, United States Army
         Specialist Marvin A. Campo-Siles was electrocuted while attempting a generator
repair at Pad 9, Forward Operating Base Brassfield-Mora, Samarra, Iraq, on April 17,
2004. The generator and exterior of the housing unit involved in the incident are shown
in the figure below.




                            Figure 1. Generator and Housing Area

                      Involved in the Specialist Campo-Siles Electrocution 

                                   (From Army Photographs) 



       Investigations

       Investigations were completed in the case, as follows:




                                                4

                        Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                              Staff Sergeant Ryan D. Maseth, U.S. Army
                                                               July 24, 2009     Report No. IPO2009E001


                         Table 2. Investigations Conducted in Campo-Siles Case


                         Type                             Report No.              Report Date
        Armed Forces Institute of Pathology     A04-22                            6/15/2004
        Accident                                                                  7/13/2004
        USACIDC                                 0075-04-CID469-79652-5H8          8/10/2004


       Observations

       Specialist Campo-Siles was a trained and experienced generator repairman. On
April 17, 2004, he and two other soldiers were performing maintenance on a generator
supplying electrical power to two warehouse-like structures that housed U.S. soldiers on
Forward Operating Base Brassfield -Mora. The generator was functioning, but the
housing units were not receiving electrical power. The team checked voltage at the
breaker box and concluded that electricity was not flowing through the breaker box.
While Specialist Campo-Siles remained at the breaker box, the two other soldiers began
following the wires to determine where the electrical “drop off” was occurring. The
wiring from the generator (located outside the housing unit) and the interior of the
housing area are shown in the figure below.




                            Figure 2. Generator Cable and Housing Unit
                          Involved in Specialist Campo-Siles Electrocution
                                     (From Army Photographs)

        Shortly after leaving Specialist Campo-Siles, the two other soldiers heard a
scream and, upon checking, discovered Specialist Campo-Siles lying on the ground. He
apparently had disconnected wires from the breaker box and was holding live electrical
wires in his hands. A yellow screwdriver apparently used for the disconnections was
found near the electric meter. The incident site is shown in the figure below.




                                                  5

                     Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                           Staff Sergeant Ryan D. Maseth, U.S. Army
                                                            July 24, 2009   Report No. IPO2009E001




                         Figure 3. Site Where Specialist Campo-Siles
                         was Electrocuted (From Army Photographs)

        After safely dislodging the wires, one soldier used a vehicle to go for help. The
other remained with Specialist Campo-Siles. The soldier who went for help returned
with another soldier, and the three loaded Specialist Campo-Siles into the vehicle. One
administered cardiopulmonary resuscitation during transport to the Medical Aid Station.
Specialist Campo-Siles never regained consciousness. A doctor at the Medical Aid
Station subsequently pronounced him dead.

       The USACIDC investigation included:

       	 examining the death scene appropriately—sketches were made and pictures
          were taken;

       	 conducting pertinent interviews and obtaining statements from the individuals;
          and

       	 ensuring autopsy results were collected and used appropriately—the cause of
          death was listed as “electrical injury,” and the manner of death was listed as
          “accident.”

       The investigation was adequate for the circumstances.

       Site Visit

       We visited the site on October 5-6, 2008. The facility is now used as a warehouse
for equipment, not for housing troops, and the generator is no longer located outside the
warehouse.

       Government Contractor Involvement

       The Accident/Safety Investigative Report identified a U.S. contractor as having
provided the “commercial generator,” but did not indicate the contractor owned the


                                               6

                     Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                           Staff Sergeant Ryan D. Maseth, U.S. Army
                                                            July 24, 2009   Report No. IPO2009E001


generator or was responsible for its maintenance. The investigative reports also did not
identify the company or individual responsible for installing the generator, or breaker
box.

       Conclusion

       Further investigation is not warranted.




                                               7

                        Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                              Staff Sergeant Ryan D. Maseth, U.S. Army
                                                               July 24, 2009   Report No. IPO2009E001




       Specialist Chase R. Whitham, United States Army
         Specialist Chase R. Whitham was electrocuted while swimming in an outdoor
pool at Forward Operating Base Patriot, Mosul, Iraq, on May 8, 2004. The site is shown
in the figure below.




                              Figure 4. Pool Where Specialist Whitham
                             was Electrocuted (From Navy Photographs)


       Investigations

       Investigations were completed in the case as follows:

                           Table 8. Investigations Conducted in Whitham Case


                         Type                            Report No.              Report Date
        Accident                                2004-05-08-001                  5/28/2004
        Armed Forces Institute of Pathology     ME 04-346                       6/7/2004
        USACIDC                                 0061-04-CID389-80658-5H8        8/4/2004
                                                                                (Reopened)


       The Incident

        In April 2004, a junior officer decided to fix an outdoor swimming pool in
advance of the summer’s heat. He used in-house Iraqi employees to restore the
appearance of the pool and fix the water pumping system. The battalion commander was
asked to open the pool, but denied the request and directed the installation of force
protection barriers. A senior noncommissioned officer informed all other
noncommissioned officers the pool was not to be used. Several soldiers said they used
the pool in early May. On May 8, while several soldiers, including Specialist Whitham,
were swimming, Specialist Whitham touched a metal pipe circulating pool water and was
electrocuted. Another swimmer received an electrical burn on his stomach. Electricians


                                                  8

                     Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                           Staff Sergeant Ryan D. Maseth, U.S. Army
                                                            July 24, 2009   Report No. IPO2009E001


subsequently determined the pool’s water pump shorted and was not properly grounded
or bonded.

       Observations

        The investigators conducted minimum investigative steps to confirm cause and
manner of death. Interviews were minimum in number and scope, and potentially
important leads were not pursued. Physical evidence was not collected. A negligent
homicide investigation was not considered even though (1) the command did not apply
quality controls to ensure compliance with any electrical code or safety requirement when
“in-house Iraqi workers” installed the water pump 2-3 weeks before the electrocution,
and (2) the command did not post signs or otherwise take action to prevent soldiers from
using the pool after it was placed off limits. The investigations did not resolve those
matters. Additionally, members of the mayor’s cell, who allegedly inspected the in-
house laborers’ work, were not identified and interviewed.

       Equipment

       	 Water Pump: The pump was located above ground, adjacent to a fuse box,
          and connected a water supply pipe, which continued to the pool, to a second
          above ground pipe, which also continued to the pool. The pipes were both 3-
          inch diameter metal pipes that extended about 20 feet through a hedge to the
          North swimming pool West side. Report of investigation photographs
          indicate boxes made of wood/lumber covered the pump and fuse box, as
          shown in the figure below.




                          Figure 5. Covers for Pump and Fuse Box 

                     in Area Where Specialist Whitham was Electrocuted 

                                 (From Navy Photographs)


       	 From photographs, the water pump nomenclature read “BU...RKS.” A model
          or serial number was not identified. Photographs at the scene were inadequate
          to help with nomenclature identification.


                                               9

                    Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                          Staff Sergeant Ryan D. Maseth, U.S. Army
                                                           July 24, 2009   Report No. IPO2009E001




          (NOTE: The water pump was not grounded or bonded, and the over-current
          protection was a standard 10A breaker, not a ground fault breaker.)

       	 North Swimming Pool: The sides/edges were straight on the north, south, and
          east sides, and the west side was semi-circular. The two silver metal pipes
          extending from the west side to the water pump were above ground/visible.
          Specialist Whitham was observed touching one of these metal pipes before he
          was electrocuted. Two other pools at the site were not in use/not filled with
          water.

       Site Visit

       We did not visit the site. The former Forward Operating Base Patriot has been
returned to Iraqi control.

       Government Contractor Involvement

       It is unknown whether repairs to the swimming pool complex would have been
covered, or should have been pursued through one or more U.S. contractors operating in
Iraq. However, the command used local in-house Iraqis for the repairs.

       Conclusion

        We concluded further investigation was warranted and on December 5, 2008,
referred the case to the Army for further examination. Based on our referral, USACIDC
reopened its investigation. Conclusions concerning accountability and responsibility
await completion of the investigation.




                                             10

                     Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                           Staff Sergeant Ryan D. Maseth, U.S. Army
                                                            July 24, 2009   Report No. IPO2009E001




       Private First Class Brian K. Cutter, United States Marine
       Corps
        Private First Class Brian K. Cutter was electrocuted while attempting repair on an
air conditioner unit at Al-Asad Airbase, Iraq, on May 13, 2004. The site is depicted in
the figure below.

                    The two Lance
                    Corporals were              The two Lance
                    working on this A/C         Corporals moved
                    unit in rear of tent        this power line




                                                Private Cutter was found
                                                here




                          Figure 6. Drawing Depicting Area Where

                              Private Cutter was Electrocuted 

                            (From Army Report of Investigation) 



       Investigations

       Investigations were completed in the case as follows:




                                              11

                        Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                                 Staff Sergeant Ryan D. Maseth, U.S. Army
                                                                  July 24, 2009    Report No. IPO2009E001


                           Table 9. Investigations completed in the Cutter case


                              Type                                Report No.          Report Date
        Command                                             5800 Legal               5/17/2004
        Armed Forces Institute of Pathology -Preliminary    ME 04-363                5/18/2004
        Armed Forces Institute of Pathology                 ME 04-363                2/17/2005
        NCIS                                                21MAY04MEBJ0191          11/3/2006


       Observations

        The Naval Construction Battalion (Seabees) ensured that two air conditioning
units worked in each tent the 3rd Assault Battalion would occupy prior to their arrival at
Al-Asad Airbase. However, some units stopped working by the time the battalion
arrived. Due to high work demand at the camp, the Seabees did not get back to fix the air
conditioning before three Marines started working on it themselves.

        After 49 hours without air conditioning, the senior noncommissioned officer, a
Gunnery Sergeant, asked Private First Class Cutter to see if he could fix the air
conditioning. Private First Class Cutter attempted to rewire the electrical boxes and an
air conditioner unit, but did not have the proper training, knowledge, or tools for the task.
Two junior enlisted personnel who attempted to assist with the repair also did not have
the proper training, knowledge, or tools.

       Private First Class Cutter died from electrical shock while using a metal tool and
attempting to rewire an air conditioning unit to the breaker box and subpanel/junction
box. Resuscitation attempts were unsuccessful.

       After considering the investigative results, on June 13, 2004, the Commanding
Officer, Marine Corps Regimental Combat Team-7, held that:
                1. Private First Class Cutter died while attempting to fix the air
                conditioning units feeding his platoon's tents. That attempt was made
                by three young Marines who, while not qualified to fix or work on
                electrical systems or air conditioners, had in the past demonstrated
                proficiency with utilities.      The attempt was executed in an
                expeditionary camp in a combat zone where temperatures routinely
                approached 100d Fahrenheit by midmorning. The attempt was also
                made without proper supervision or the conduct of a hasty ORM
                [Operational Risk Management] prior to commencement of work. The
                tragic results should have been predicted and precluded. . . .

                3. I do not fault . . . [the senior noncommissioned officer] for
                considering the use of his "fix-it" Marines to repair the air conditioners.
                In this environment, under these conditions, leaders are required to
                balance operational requirements with risk; there will be times when a
                decision is made to employ Marines outside of their MOS [Military
                Occupational Specialty] qualifications. However, risk identification
                and assessment, a requirement to supervise to ensure risk is mitigated,
                and the leaders enduring and immutable requirement to supervise is



                                                     12

                       Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                               Staff Sergeant Ryan D. Maseth, U.S. Army
                                                                July 24, 2009    Report No. IPO2009E001


               inherent to that decision. [The senior noncommissioned officer]. . .
               assigned the task and then failed in these basic leadership tenets. He
               bears a measure of responsibility for the sequence of events leading to
               the tragic consequences. . . .

               5. . . . [the senior noncommissioned officer], after tasking Private First
               Class Cutter, [and two junior enlisted personnel] to repair the air
               conditioners, failed to ensure that proper tools were provided, that
               proper safety procedures were in place, and that proper supervision was
               provided to the Private First Class and two LCpls [Lance Corporals].

               6. . . . recommend that Commanding Officer, 3d AA Bn [3rd Assault
               Amphibian Battalion] reflect . . . [the senior noncommissioned
               officer’s] leadership failure via administrative action to include a
               fitness report, NPLOC [Non-Punitive Letters of Caution], or page 11
               entry.


       Site Visit

        We visited the site on October 7-8, 2008. However, the tent compound involved
in the electrocution no longer existed. At the time of our visit, the location was an active
construction site.

       Government Contractor Involvement

       The tents were not covered by a U.S. Government contractor. The Naval
Construction Battalion (Seabees) and possibly local contractors performed electrical
work at the tents.

       Conclusions

       Further action is not warranted. Corrective action was taken against the
noncommissioned officer who requested Private First Class Cutter repair the air
conditioning unit.




                                                  13

                           Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                                   Staff Sergeant Ryan D. Maseth, U.S. Army
                                                                    July 24, 2009     Report No. IPO2009E001




         Specialist Marcus O. Nolasco, United States Army
        Specialist Marcus O. Nolasco was electrocuted while showering at Forward
Operating Base Summerall, Bayji, Iraq, on May 18, 2004. The shower is shown in the
figure below.




                               Figure 7. Shower Where Specialist Nolasco
                               was Electrocuted (From Army Photographs)


         Investigations

         Investigations were completed in the case as follows:

                            Table 10. Investigations Completed in the Nolasco Case


                             Type                                 Report No.                Report
                                                                                             Date
           Armed Forces Regional Medical Examiner -    A04-56                             05/21/2004
           Preliminary
           Accident                                    2004-05-08-001                     7/13/2004
           USACIDC                                     0099-04-CID469-79661-5H8           8/3/2004
           USACIDC-Corrected                           0099-04-CID469-79661-5H8           12/21/2004
                                                                                          (Reopened)


         The Incident

       On May 2, 2004, a local Iraqi contractor completed renovations on a
bathroom/shower facility. The scope of work under the contract did not provide for
removing and replacing all wiring in the shower facility as indicated in the purchase
request. 5 More importantly, it did not require the local contractor to (1) meet any

5
    The file is unclear as to whether the statement of work was part of the final contract or part of the
    Request for Proposal. We were unable to locate the complete final contract.



                                                      14

                     Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                           Staff Sergeant Ryan D. Maseth, U.S. Army
                                                            July 24, 2009   Report No. IPO2009E001


minimum or standard electrical code or requirement, (2) use new or certified parts or
equipment in the renovation, or (3) provide any warranty on the quality of work
performed or materials supplied for the contract.

        The scope of work required the local contractor to provide and install, among
other things, an above ground water storage tank, two hot water heaters, and a
pressurized water system that included an automatic water pump.

        On May 10, 2005, the contract was certified completed without any quality
assurance representative (electrician, plumber, or other) inspecting the work, either while
in progress or after completion, and payment was authorized. That same day, electrical
shock incidents and plumbing problems began. The next day the showers were closed
and locked. Four days later (May 14, 2004) a new contract was let to a different local
contractor to correct the problems in the bathroom/shower facility. Information on the
closing was not formally disseminated or announced, and a second key to the showers
remained in circulation among the soldiers. Some leaders were aware that shower use
and incidents of shocks continued after the facility was closed. Specialist Nolasco was
electrocuted in the shower on May 18, 2004.

       Observations

        The investigations were adequate for the cause and manner of death
determination, but not to establish the extent to which negligence may have caused or
contributed to the death. Also unresolved were whether a Government contractor
performing maintenance at the base was required to inspect the local contractors’ work
on the bathroom/shower facility when asked to do so. Investigations did not fully explore
whether the command negligently took appropriate action to protect soldiers during the
time the shower facility was closed for repair. They also did not determine how and why
soldiers had a second key to the shower facility and continued using the facility after it
was closed for repair, or why leaders did not post signs showing the shower was closed.
The file does not include information on the new contract, but does indicate the new local
contractor replaced one hot water heater that the first local contractor had installed.

       Equipment

       	 Water Heater: Unknown nomenclature. Probably foreign made. Installed
          during April 3 – May 2, 2004, contract work to renovate the shower facility.

       	 Water Pump: Unknown nomenclature. Probably foreign made. Installed
          during the April 3 – May 2, 2004, contracted shower facility renovation.

           (Note: An automatic water pump did not maintain water in water heaters,
           causing a heating element to rupture, resulting in electricity traveling through
           the metal water lines into the shower.)




                                              15

                     Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                           Staff Sergeant Ryan D. Maseth, U.S. Army
                                                            July 24, 2009   Report No. IPO2009E001


       Site Visit

        We visited the site on October 4-5, 2008. The area where the electrocution
occurred is now a small-compound type area outside the current Forward Operating Base
Summerall. U.S. Forces no longer inhabit or use the area. The specific shower stall
where the electrocution reportedly happened could not be located. Nothing involved in
the incident remained for examination.

       Government Contractor Involvement

        The command did not request the repair from a Government contractor and
instead contracted with a local foreign national firm. However, the command then asked
a Government contractor to inspect the local contractor’s work, indicating the
Government contractor might have had some responsibility for the shower facility. The
investigations did not resolve the question.

       Conclusions

       We concluded that further investigation was warranted, and on December 5, 2008,
we referred the case to the Army for further examination. Based on our referral,
USACIDC reopened its investigation. Conclusions concerning accountability and
responsibility await completion of the investigation.




                                              16

                         Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                                Staff Sergeant Ryan D. Maseth, U.S. Army
                                                                 July 24, 2009      Report No. IPO2009E001




       Hospital Corpsman Third Class David A. Cedergren, United
       States Navy
      Hospital Corpsman Third Class David A. Cedergren died in a shower facility at
Camp Iskandiriyah, Iraq, on September 11, 2004. The shower facility is shown below.




                                   Figure 8. Shower Area Where 

                          Hospital Corpsman Cedergren Was Electrocuted 

                                     (From Navy Photographs)



       Investigations

       Investigations were completed in the case, as follows:

                         Table 14. Investigations Completed in the Cedergren Case


                  Type                             Report No.                       Report Date
        Command                     Command Investigation into the               01/07/2005
                                    Circumstances Surrounding the Death of
                                    Hospital Corpsman Third Class David A.
                                    Cedergren 477 08 0071/8404 U.S. Navy, on
                                    11 September 2004.
        Armed Forces Institute of   ME 04-679                                    11/8/2004
        Pathology
        Armed Forces Institute of   ME 04-679 (Amended)                          08/18/2008
        Pathology
        NCIS                        15SEP04-MEBJ-0401-7HNA                       11/29/2005
                                                                                 (Reopened)


       The Incident

        In the early morning of September 11, 2004, a Marine Corps lance corporal
entered the shower facility and saw Hospital Corpsman Third Class Cedergren
unconscious on the floor in a shower stall. He went for help without touching Hospital
Corpsman Cedergren because he was concerned the body might be electrified. Upon
returning to the site with help, he and others used a plastic poncho to pull Hospital


                                                   17

                     Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                           Staff Sergeant Ryan D. Maseth, U.S. Army
                                                            July 24, 2009   Report No. IPO2009E001


Corpsman Cedergren from the shower stall. The lance corporal subsequently explained
to investigators that he previously had heard about several Marines and an Iraqi receiving
electrical shocks while using the shower. Hospital Corpsman Cedergren was taken to the
aid station where he was later pronounced dead.

        The camp commandant told investigators that he had heard about incidents of
shocks over the preceding 3 weeks, and had requested an inspection. The commandant
said the military engineer who conducted the inspection removed an electrical wire that
was touching a water pipe. The investigations did not report whether removing the wire
solved the problem, or whether additional electrical shocks occurred after the inspection
and before Hospital Corpsman Cedergren’s death. After Hospital Corpsman Cedergren’s
death, the commandant requested another inspection from a different Marine Corps unit.
The second inspection disclosed the camp’s electrical system was unsafe, and identified
several electrical deficiencies in or near the showers, including wiring that was not
grounded.

       None of the investigations determined who was responsible for erecting, wiring,
or maintaining the shower facility.

        An Armed Forces Medical Examiner autopsy and consultation with a heart
specialist determined Hospital Corpsman Cedergren died from heart disease. The
November 8, 2004, autopsy report categorized the death as from natural causes.

         In July 2008, a Member of Congress contacted the DoD Inspector General on
behalf of Hospital Corpsman Cedergren’s family and asked for a review of the death
investigations. As part of our review, we asked the Armed Forces Medical Examiner to
examine its autopsy findings. Based on additional investigative information not available
when the initial autopsy was completed, the Armed Forces Medical Examiner amended
the initial autopsy findings. In an amended autopsy report dated August 18, 2008, the
Armed Forces Medical Examiner categorized the manner of death as an accident, but
held the death could have been caused by lymphocytic myocarditis (heart disease) or
electrocution. As a result of the amended autopsy findings, the Naval Criminal
Investigative Service reopened its investigation into the death.

       Equipment

          Outdoor wooden showers with wood slat floors covered in chicken wire mesh.
           Photographs in the investigative files depict signage at the shower facility
           warning of “Danger” and “Electric Shock Hazard;” however, the signage is
           not explained.

       Site Visit

        On October 9, 2008, we visited the site. The wooden shower facility no longer
existed, and people currently assigned did not know where it was previously located.



                                              18

                     Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                           Staff Sergeant Ryan D. Maseth, U.S. Army
                                                            July 24, 2009   Report No. IPO2009E001




       Government Contractor Involvement

        Original Government investigations did not establish responsibility for erecting,
wiring, or maintaining the outdoor wooden shower facility.

       Conclusions

        NCIS reopened its investigation after we requested a review and the Armed
Forces Medical Examiner revised its initial autopsy findings. The investigation was
recently completed and is currently being reviewed by this Office.




                                              19

                       Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                             Staff Sergeant Ryan D. Maseth, U.S. Army
                                                              July 24, 2009    Report No. IPO2009E001




       Sohan Singh, Civilian Contractor Employee
       Mr. Sohan Singh was electrocuted while attempting to enter his quarters at
Fallujah Surgical, Camp Fallujah, Iraq, on July 19, 2005. The exterior of the quarters are
shown in the figure below.




                      Figure 9. Quarters Where Mr. Singh Was Electrocuted
                                   (From Navy Photographs)


       Investigations

       The following NCIS investigation was completed:

                         Table 12. Investigation Completed in the Singh Case


               Type                        Report No.                          Report Date
        NCIS             19JUL05MEBJ04607HMA/C                             10/23/2005


       Observations

      Mr. Singh was a third country national (India) employed by a Kellogg, Brown,
and Root (KBR) subcontractor Daoud & Partners.

        The NCIS investigation determined that Mr. Singh or his roommate improperly
installed an air conditioning unit sitting on the floor in Mr. Singh’s living quarters. The
electrical plug had been removed, and the wires “stripped and stuck" into an electrical
receptacle connecting the neutral wire to a live feed, which caused the metal floor, walls
and door to become electrified with 217.7 volts. Witness interviews revealed that
Mr. Singh had been pouring water on his bare feet to rinse off dust immediately before
attempting to open the door to his quarters, at which time he fell to the ground in a
convulsion and became unresponsive. The investigation did not disclose any evidence of



                                                20

                     Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                           Staff Sergeant Ryan D. Maseth, U.S. Army
                                                            July 24, 2009   Report No. IPO2009E001


foul- play. Mr. Singh’s father requested return of the body to India without autopsy in
compliance with custom and tradition. KBR complied with the request.

       The investigation could have been significantly more thorough, but would not
have altered the basic investigative finding that the electrocution was accidental. The
accident resulted from human error.

       Site Visit

        We visited Camp Fallujah on October 8, 2008, but the area where the
electrocution occurred bears little resemblance to the report of investigation photographs
from July 2005.

       Government Contractor Involvement

       A DoD subcontractor employed Mr. Singh, but contracting issues were not
involved in the electrocution.

       Conclusions

       Further investigation is unnecessary. Our review did not result in questions
regarding the cause or manner of death determinations, or establish a basis for pursuing
whether someone in the chain of command should be held accountable in Mr. Singh’s
death.




                                              21

                          Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                                   Staff Sergeant Ryan D. Maseth, U.S. Army
                                                                    July 24, 2009    Report No. IPO2009E001




       Sergeant Christopher L. Everett, United States Army
       Sergeant Christopher L. Everett was electrocuted while using a power washer at
Camp Taqaddum, Iraq, on September 7, 2005. The death scene is shown in the figure
below.




                              Figure 10. Area Where Sergeant Everett 

                             Was Electrocuted (From Army Photographs) 



       Investigations

       The Naval Criminal Investigative Service conducted the investigation until the
U.S. Army Criminal Investigation Command arrived at the scene on September 11, 2005.
NCIS continued logistical support until USACIDC completed the investigation and
departed the area on September 28, 2005. Investigations were completed in the case as
follows:

                           Table 15. Investigations Completed in the Everett Case


                   Type                                Report #                       Report Date
        Command                      Both an AR 15-6 Investigation and a Line of    9/18/2005
                                     Duty Investigation were started, but
                                     combined into a single investigative report.
        Armed Forces Institute of    ME 05-0841                                     10/15/2005
        Pathology
        USACIDC                      SSI-0239-2005-CID259-36338-5H8                 12/15/2005
                                                                                    (Reopened)
        Accident                     2005-09-07-002                                 5/10/2007




                                                      22

                      Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                            Staff Sergeant Ryan D. Maseth, U.S. Army
                                                             July 24, 2009   Report No. IPO2009E001


       The Incident

         In early August 2005, a contractor moved an electrical generator to replace an
ineffective diesel generator. The new generator provided power for various nearby
activities, including a power washer used to clean vehicles. Almost immediately, a
military member without electrical or generator training connected the power washer to
the new generator. Over the next 2 weeks, people who used the power washer received
electrical shocks, including Sergeant Everett and a member of the base’s generator repair
team. A military maintenance supervisor told the same generator repair team member
(who had no formal training in electricity or generator repair) to ground the generator.
The team member inserted a grounding rod and connected it to the generator. The power
washer continued to shock Service members, and they reported it. On September 7,
2005, Sergeant Everett was electrocuted using the power washer to clean a vehicle.

       Observations

        Our review of investigations into this matter disclosed significant unresolved
testimonial conflicts between witnesses in the different investigations. Those conflicts
included questions about how often and who connected or reconnected the power washer;
the qualifications and training of the generator maintenance personnel; the efficacy of
grounding techniques used; the protocol used in testing for ground; and the extent to
which military leaders knew about the specific electrical hazard. Additionally, the
investigations did not affirmatively establish responsibility for installing, maintaining, or
connecting items to the generator.

       Equipment

          Power Washer: Gerni brand, Model 482A, Serial Number: 030401000326
           2003; Green, Black and Yellow in color, plastic and metal construction.
           Power washer had a black rubber hose and handheld washing wand attached.

          Generator:

               Model and Serial Number: AX91375 and GAUJC027M, respectively.
                (Note: In some instances, the contractor’s Power Generation Dept. Fault/
                Repair Sheets have the two numbers inverted, so we are unsure which is
                the model number and which is the serial number.)

               KW = 400. KVA = 500.

               Engine Model Number: 2806C-E16TA

               Engine Serial Number: 2PXL15.8H16 or HGB061025U0 (Note: Some
                Power Generation Dept. Fault/Repair Sheets list the engine serial number
                as 2PXL15.8H16. Others list it as HGB061025U0. Also, some identify
                the engine as a "Perkins" brand name.)


                                               23

                     Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                           Staff Sergeant Ryan D. Maseth, U.S. Army
                                                            July 24, 2009   Report No. IPO2009E001


       Site Visit

        On October 7-8, 2008, we visited the site. The maintenance area where the
electrocution occurred no longer existed. Current personnel identified the area where the
vehicle washing area had been located. The area is now a large empty lot used for
parking vehicles.

       Government Contractor Involvement

       Questions remain as to whether a Government contractor was contractually
responsible for maintaining the generator involved in the electrocution.

       Conclusions

        We concluded that further investigation was warranted and on December 5, 2008,
referred the case to the Army for further examination and appropriate action. Based on
our referral, USACIDC reopened its investigation. Conclusions concerning
accountability and responsibility await completion of the investigation.




                                              24

                        Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                               Staff Sergeant Ryan D. Maseth, U.S. Army
                                                                July 24, 2009      Report No. IPO2009E001




       Sergeant Michael J. Montpetit, United States Army
        Sergeant Michael J. Montpetit was electrocuted while attempting a generator
repair at the Joint Security Station, Forward Operating Base Prosperity, Iraq, on June 22,
2007. The generator is shown in the figure below.




                                 Figure 11. Generator on Which 

                            Sergeant Montpetit was Attempting Repair 

                           When Electrocuted (From Army Photographs) 



       Investigations

       Investigations were completed in the case as follows:

                        Table 16. Investigations Completed in the Montpetit Case


                       Type                              Report No.                 Report Date
        Accident                              2007-06-22-001                       07/04/2007
        Armed Forces Institute of Pathology   ME 07-0797                           08/05/2007
        USACIDC                               SSI-0149-2007-CID899-23061-5H8       09/13/2007


       Observations

        On June 22, 2007, Sergeant Montpetit and a co-worker arrived at the Joint
Security Station, Forward Operating Base Prosperity, Iraq, to perform maintenance on a
Caterpillar 800KW generator. The generator was backup power for the Joint Security
Station. City electricity was the primary power. The previous night, the city feed wire
sparked and caused a fire at the Joint Security Station. A Master Sergeant assigned to
Headquarters and Headquarters Command, 2d Brigade Combat Team, 1st Calvary
Division, turned the generator off and asked for maintenance assistance. According to


                                                   25

                      Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                             Staff Sergeant Ryan D. Maseth, U.S. Army
                                                              July 24, 2009   Report No. IPO2009E001


the safety report, Sergeant Montpetit and his co-worker were qualified generator
repairmen, and had even repaired this particular generator before. With the generator
running, Sergeant Montpetit was testing what are known as bus wires with an approved
instrument. Sergeant Montpetit apparently came in contact with one of the live bus wires
and collapsed. The Master Sergeant who requested the maintenance began
cardiopulmonary resuscitation while Specialist Montpetit’s co-worker went for medical
assistance. Sergeant Montpetit never regained consciousness and was later pronounced
dead. All three soldiers were in full battle gear, including individual body armor and
ammo pouches.

       The accident review board found that Sergeant Montpetit accidentally touched
one or more hot bus bars and received an electrical shock through his body, which killed
him.
               a) The generator was producing over 400 Volts and pushing about
               230 volts to each bus bar.

               b) The burn marks on the back of his hands, indicate that Sergeant
               Montpetit touched one or more bus bars and was electrocuted as a
               result. . . .

       The safety report noted:
               . . . The battle gear worn at the time of the accident may have
               inadvertently made contact with the buss. The gear extends out from
               the body and the wearer can be unaware of the space that it occupies.
               If the gear and the wearer is moist with perspiration and the wearer is
               effectively grounded it can make unintentional but effective point of
               conduction. . . ,

               . . . [Sergeant]Montpetit perspired heavily. This made his skin and
               body an easier conductor of current and presented a low resistance for
               the voltage to go to ground. . . .

       The safety report, however, also noted:
               . . . A week before the accident 15th BSB [Base Support Battalion]
               fixed an oil leak on the generator's engine. During the visit by the
               safety team, the electrical engineer noted that the generator was not
               properly grounded and the Iraqis had placed three feed wires to provide
               one-phase electricity to some of the buildings on the compound. . . .

               . . . The generator can be accessed by Iraqis on the compound who
               have connected wires and possibly removed the grounding wire. . . .

       As a result, the safety investigation concluded that improper grounding may have
contributed to the severity of the injuries. The basic finding, however, is that a trained
mechanic accidentally touched one or more bus wires carrying 230-400 volts each with
the back of his right hand and was electrocuted while performing maintenance on a



                                                 26

                     Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                           Staff Sergeant Ryan D. Maseth, U.S. Army
                                                            July 24, 2009   Report No. IPO2009E001


powerful generator. Proper grounding would not have prevented the resulting death. The
investigations establish that this electrocution was a tragic accident.

       Equipment

       Caterpillar 800 KW generator--Nomenclature unknown. Installation/
maintenance--15th Base Support Battalion.

       Site Visit

       Forward Operating Base Prosperity no longer existed, and we did not visit the
former JSS site.




                          Figure 12. Site Map Showing Area Where
                            Sergeant Montpetit Was Electrocuted
                            (From Army Report of Investigation)


       Conclusions

       Further action is not warranted. Our review did not result in questions regarding
the cause or manner of death determinations, or establish a basis for pursuing whether
someone in the chain of command should be held accountable for Sergeant Montpetit’s
death.




                                              27

Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                      Staff Sergeant Ryan D. Maseth, U.S. Army
                                       July 24, 2009   Report No. IPO2009E001




       This page intentionally left blank.




                         28

                             Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                                              Staff Sergeant Ryan D. Maseth, U.S. Army
                                                                               July 24, 2009        Report No. IPO2009E001



Appendix A. U.S. Military or Contractor
         Personnel Electrocuted in Iraqi
         March 2003 through March 2009
No.      Rank         Date     Synopsis                                                                                       Code

                                                        U.S. ARMY
                             Balad ~Soldier inadverently grabbed power lines and was fatally injured when he tried to
 A1    CPT (O3)    18-Sep-03                                                                                                   PL
                             lift/move power lines while on top of Bradley vehicle.
                             Kirkuk ~Electrocuted while running a communication cable in Kirkuk after he accidently
 A2    SGT (E-5)   24-Dec-03                                                                                                   PL
                             touched power line while trying to repair telephone wire.

 A3    PFC (E-3)   19-Mar-04 Babqubah ~ Electrocuted while running telephone wires. Metal ladder hit a power line.             PL

                             Samarra ~ Electrocuted while working on a generator at a Coalition base in Samarra,
 A4    SPC (E-4)   17-Apr-04                                                                                                  G/E
                             generator was not properly grounded.
                             Mosul ~ Died near Mosul in an electrical accident after he touched a metal pipe used to
 A5    SPC (E-4)    8-May-04 pump water into pool, and pump motor shorted out and was not properly grounded. No               G/E
                             apparent KBR involvement. USACIDC investigation remains open.
                               Bayji ~ Died after an electrical accident while taking a shower. W ater heater shorted out
 A6    SPC (E-4)   18-May-04                                                                                                  G/E
                               and was not grounded. KBR not involved. USACIDC investigation remains open.
                             Baghdad ~ Electrocuted while laying on aluminum pallets power washing the bottom of
 A7    SGT (E-5)   7-Sep-05 vehicles. Power washer was hooked directly to a generator with no circuit breakers or             G/E
                             safety measures. Responsibility not clear. USACIDC investigation remains open.
                             Baghdad ~ Received an electrical shock while emplacing a concrete T-wall at COP
 A8    SPC (E-4)   12-Apr-07                                                                                                   PL
                             Pathfinder and his crane hit a power line.
                               Baghdad ~ Electrocuted while performing maintenance check on a generator and was
 A9    SGT (E-5)   22-Jun-07                                                                                                  G/E
                               hooking up equipment from power line to generator.
                               Baghdad ~ Electrocuted while in the shower as a result of an ungrounded water pump
A10   SSG (E-6)     2-Jan-08   that shorted. USACIDC titled 2 KBR employees for criminal negligence. MNFI SJA                 G/E
                               determined insufficient for prosecution. USACIDC investigation remains open.
                                                U.S. MARINE CORPS
                               An Nasiriyah ~ While manning a .50 caliber rifle on top of a 7-ton truck, he was
 M1   LCPL (E-3)    2-Apr-03                                                                                                   PL
                               electrocuted when the vehicle snagged low hanging power lines.
                               Fallujah ~ Failed repair. Found on the ground clutching a box containing air conditioning
 M2    PFC (E-2)   13-May-04                                                                                                  G/E
                               power supply unit. No KBR involvement.
                             Camp A1 Taqaddum, Iraq ~ W hile assigned to a Route Recon Convoy that was
 M3    SGT (E-5)   28-Jan-05 conducting a search for unexploded ordnance, came in contact with a low hanging                   PL
                             electrical wire and was electrocuted.
                             Camp Rawah, Iraq ~ Assisting in improving a battle position on top of a roof structure
 M4    2LT (O-1)    4-Nov-06 when he fell approximately six feet from a cupola to the roof. Before or during his fall, he      PL
                             contacted power lines and was electrocuted.
                               Camp Al Asad, Iraq ~ While riding in the gun turret of a 7- Ton Truck, he was
 M5   LCPL (E-3)   16-Apr-07                                                                                                   PL
                               electrocuted after touching a low hanging electrical wire.
                                                          U.S. NAVY
                             Camp Iskandariyah, Iraq ~ Found in an outdoor shower stall not breathing and without a
 N1   HM3 (E-4)    11-Sep-04 pulse. A command inspection of the shower stalls deemed the showers dangerous for                G/E
                             electrical shock. AFIP changed cause of death. NCIS investigation ongoing.
                                                    CONTRACTORS
                            Baghdad ~ Individual was electrocuted when he grabbed the door knob to his room. The
      Mr (Foreign
 C1               19-Jul-05 knob and door was electrified by an improperly installed window air conditioning unit             G/E
       National)
                            installed by other occupants of his quarters.
      Mr (Foreign           Baghdad ~ While working at a construction site, swung a metal pipe that hit a power line
 C2               24-Feb-08                                                                                                    PL
       National)            and made him fall off a wall.
LEGEND: PL = Individual killed by touching a power line    G/E = Individual killed by improper grounding / faulty equipment




                                                              29

Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                      Staff Sergeant Ryan D. Maseth, U.S. Army
                                       July 24, 2009   Report No. IPO2009E001




       This page intentionally left blank.




                         30

                        Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                                              Staff Sergeant Ryan D. Maseth, U.S. Army
                                                               July 24, 2009   Report No. IPO2009E001



Appendix B. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisitions, Technology and Logistics
   Deputy Under Secretary of Defense for Acquisitions and Technology*
      Director, Defense Contract Management Agency*

Combatant Commands
Commander, U.S. Special Operations Command
Commander, U.S. Central Command*
  Commander, Multi-National Force-Iraq*
     Commander, Multi-National Corps-Iraq*

Joint Staff
Director, Joint Staff

Department of the Army
Commander, Army Materiel Command
   Executive Director, Army Contracting Command*
Assistant Chief of Staff, Installations Management*
Department of the Army, Inspector General
Chief of Engineers, U.S. Army Corps of Engineers
Army Auditor General*
Commander, U.S. Army Criminal Investigation Command*

Department of the Navy
Naval Inspector General

Naval Criminal Investigative Service*


Department of the Air Force
Secretary of the Air Force, Inspector General

Congressional Committees
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform



* Denotes recipient of the draft report.



                                                 31

Review of Electrocution Deaths in Iraq: Part II – Seventeen Incidents Apart from
                                      Staff Sergeant Ryan D. Maseth, U.S. Army
                                       July 24, 2009   Report No. IPO2009E001




       This page intentionally left blank.




                         32

                                                                      General Information
                                                                      Forward questions or comments concerning this report and other activities conducted by the
                                                                      Inspections & Evaluations Directorate to:
               DEPARTMENT OF DEFENSE
                                                                                                                           Inspections & Evaluations Directorate
	
	
                                                                                                             Office of the Deputy Inspector General for Policy and Oversight
	
	
              OFFICE OF INSPECTOR GENERAL
                                                                                                                   Department of Defense Office of Inspector General
	
	
                                                                                                                                   400 Army Navy Drive
	
	
                                                                                                                                Arlington, VA 22202-4704
	
	
                                                                                                                              E-mail: crystalfocus@dodig.mil
	
	

                                                                      An overview of the Department of Defense Office of Inspector General mission and organization
                     MISSION STATEMENT                                structure is available at http://www.dodig.mil




      Promote integrity, accountability, and improvement of
Department of Defense personnel, programs and operations to support
       the Department's mission and serve the public interest.




                                                                      D E PA R T M E N T O F D E F E N S E
                                                                                                                                 To report fraud, waste, mismanagement, and abuse of authority.


                                                                      hot line                                                   Send written complaints to: Defense Hotline, The Pentagon, Washington, DC 20301-1900
                                                                                                                                 Phone: 800.424.9098         e-mail: hotline@dodig.mil       www.dodig.mil/hotline
